<html>
<title> - NIGERIA ON THE BRINK?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                         NIGERIA ON THE BRINK?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2015

                               __________

                            Serial No. 114-4

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-851 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                         
   
   
   
   
   
   
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert P. Jackson, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     7
J. Peter Pham, Ph.D., director, Africa Center, Atlantic Council..    28
Mr. Jadegoke Adebonajo Badejo, principal partner, Bonajo Badejo & 
  Co.............................................................    44
Mr. Emmanuel Ogebe, manager, Peaceful Polls 2015 Project.........    61
Chris Fomunyoh, Ph.D., senior associate and regional director for 
  Central and West Africa, National Democratic Institute.........    99

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert P. Jackson: Prepared statement..............    12
J. Peter Pham, Ph.D.: Prepared statement.........................    33
Mr. Jadegoke Adebonajo Badejo: Prepared statement................    47
Mr. Emmanuel Ogebe: Prepared statement...........................    64
Chris Fomunyoh, Ph.D.: Prepared statement........................   101

                                APPENDIX

Hearing notice...................................................   112
Hearing minutes..................................................   113
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island:
  Written responses from the Honorable Robert P. Jackson to 
    questions submitted for the record...........................   114
  Prepared statement.............................................   116
Chris Fomunyoh, Ph.D.: Statement of the Joint NDI/IRI Pre-
  election assessment mission to Nigeria.........................   124

 
                         NIGERIA ON THE BRINK?

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and let me 
welcome all of you to our subcommittee hearing today, the first 
of this new year in a new Congress.
    Both Ms. Bass and I were delayed, and I apologize for that. 
We had a press conference on combating human trafficking. There 
are 12 bills on the floor between yesterday and today. So we 
were speaking on that. So, again, I apologize to all of you for 
the lateness convening the hearing.
    Nigeria, as you know, is Africa's most populous nation and 
it is the continent's largest economy. Unfortunately, Nigeria 
is beset by various challenges of threatened peace and 
stability of this African giant. The terrorist group Boko Haram 
continues its bloody reign of terror, now threatening to 
establish a caliphate on the model of ISIS. Religious and 
ethnic discord which predate Boko Haram's emergence continues 
unabated. Lower oil prices have seriously damaged an economy 
significantly dependent on oil revenues. Meanwhile, the 
prospect of a violent repeat of the 2011 post-election scene 
has ratcheted up tensions in Nigeria even further.
    Today's hearing will examine the situation in Nigeria and 
the United States' efforts to maintain positive relations with 
the largest U.S. trading partner in Africa and a major ally in 
international peacekeeping.
    U.S.-Nigeria relations were understandably rocky during the 
military rule of Sani Abacha in the 1990s. However, the advent 
of democracy with the 1999 elections ushered in an improved 
atmosphere of cooperation. Nigeria consistently ranks among the 
top recipients of U.S. bilateral foreign assistance, and it is 
the second largest beneficiary of U.S. investment in Africa.
    In recent months, though our relations have deteriorated, 
apparently some in the government of the President feel the 
U.S. is meddling in their internal affairs, especially when it 
comes to our noting of deprival of due process of rights of 
citizens by the Nigerian military and security forces. Our view 
is that friends don't let friends commit human rights abuses, 
and I think a good relationship can withstand that kind of give 
and take.
    Our subcommittee held a hearing last July 10th to examine 
the complaints that human rights vetting was a major obstacle 
to U.S. counterterrorism. What we found was that the State 
Department estimated that half of Nigerian forces would pass 
muster through the vetting process, which we found is slowed by 
too few staff working on these important issues. Still, the 
Nigerian Government must be more cooperative itself. Some units 
in larger divisions may have human rights issues, but if 
replaced by units without such baggage, there would be created 
an entirely acceptable division for training.
    Late last year the Nigerian Government cancelled the 
counterterrorism training of one of its battalions which now 
places the entire training program on hold. We are making 
arrangements for discussions in the near future with Nigerian 
military officials and Members of Congress and the Obama 
administration to try to overcome the stalemate and resume the 
cooperation that is absolutely necessary to meet the challenge 
posed by Boko Haram.
    As we all know, this terrorist group has wreaked havoc on 
the people of Nigeria, particularly in the northeast. It is 
estimated that more than 5,500 people were killed in Boko Haram 
attacks in last year alone, representing more than 60 percent 
of the more than 9,000 deaths caused by this group in the past 
5 years. As many as 2,000 people may have perished in the Boko 
Haram attack on the town of Baga and nearby villages earlier 
this month. More than 1 million Nigerians have been displaced 
internally by the violence and tens of thousands of others are 
now refugees in neighboring countries. Clearly Boko Haram 
violence is escalating dramatically.
    Boko Haram has become part of the global jihadist movement 
and threatens not only Nigeria but also Cameroon, Chad, and 
Niger. While the terrorist group may not be an official 
affiliate of al-Qaeda or ISIS, they appear to be trying to 
create an Islamic caliphate in Nigeria. Various press reports 
estimate that the group has seized as much as 70 percent of 
Borno State, with additional territory under its control in 
neighboring Yobe and Adamawa States. In fact, Reuters 
calculated by that by mid-January of this year, Boko Haram was 
in control of more than 30,000 square kilometers, an area the 
size of the State of Maryland.
    For approximately 2 years I pressed the administration to 
designate Boko Haram as a Foreign Terrorist Organization. I 
argue that like cancer, early intervention can mitigate its 
spread, severity, and duration.
    I traveled to Nigeria twice and convened three hearings 
during the last Congress on why an FTO designation might help, 
only to be told by then-Assistant Secretary of State Johnnie 
Carson that, ``. . . the phenomena of Boko Haram is one of 
discrediting the Central Government in power for its failure to 
deliver services to people.'' On the very day of our hearing to 
consider a bill on FTO designation, the State Department, led 
by Secretary of State Kerry, announced that Boko Haram was 
being designated a Foreign Terrorist Organization.
    I would ask, Mr. Jackson, if you could, during the course 
of your testimony or answers, give us some insights as to what 
has happened with that designation. Has it helped? Was it too 
late? If you could touch on that, I know I and others would 
appreciate it.
    Meanwhile, Nigeria faces the prospects of post-election 
violence after Presidential voting on February 14th. The race, 
as we all know, pits President Jonathan against former military 
Nigerian leader General Buhari in a rerun of the 2011 
elections. This time, however, Buhari's All Progressives 
Congress is a coalition of major opposition political parties, 
and includes defectors from President Jonathan's People's 
Democratic Party, such as the Speaker of the National Assembly.
    Some PDP officials have referred to their opponents as 
Nigeria's Muslim Brotherhood, while APC officials accuse the 
Jonathan administration of representing only Christian 
southerners. Party spokesmen on both sides have warned of 
potential violence, and remember some 700 churches were torched 
in the immediate aftermath of the 2011 elections, and our hope 
is, especially with the Abuja Accord that was agreed to, that 
we will not see a repeat of that loss of life and of property.
    Let me just conclude that today's hearing is just the 
beginning of our renewed efforts to help Nigeria address the 
problems that threaten its stability. We must be honest with 
Nigerians and ourselves about the difficulties we both face. 
That is why we have asked our witnesses to give their honest 
assessments of where we are in the various situations that 
Nigeria is encountering and to suggest actions our Government 
can and should take to be most helpful.
    I would like to yield to my good friend and colleague, Ms. 
Bass for any opening comments she might have.
    Ms. Bass. Thank you, Chairman Smith, and I want to thank 
Chairman Royce over there, both of you for your leadership and 
for calling today's hearing to give us an opportunity to 
examine the critical issues of governance, security, and 
stability in Nigeria in the midst of Boko Haram and in the 
lead-up to the national elections in just a few weeks.
    I would also like to thank our distinguished witnesses for 
today, including Ambassador Robert Jackson from the State 
Department, as well as several Nigerian experts and civil 
society advocates. I look forward to hearing your perspectives, 
not only on the challenges facing Nigeria, but also on how the 
U.S., along with other regional partners, can provide support 
at this critical juncture and how your agencies or 
organizations are promoting concrete solutions.
    The hearing title, ``Nigeria on the Brink?,'' begs the 
question: On the brink of what? While the challenges facing 
Nigeria have been well-publicized during the previous year and 
might lead some to expect the worst, it is my hope that today's 
hearing will be solution-oriented and not resigned to simply 
impending doom in Nigeria.
    In recent weeks, the terrorist group Boko Haram has 
escalated its violent attacks in a pattern that has become all 
too familiar over the past several years. The latest atrocity 
was the massacre of a reported 2,000 men, women, and children 
in the town of Baga in northeast Nigeria. A troubling tactic, a 
tragic tactic of Boko Haram which has emerged of late, is the 
use of children in so-called suicide bombing attacks, and, 
really, the children are being used as bombs because it is 
absolutely incorrect to consider children as suicide bombers.
    In addition, I remain deeply disturbed that the nearly 300 
girls that Boko Haram kidnapped from their schools in mid-2014, 
as well as countless others who have not received the same 
media coverage, are still being kept from their families. By 
some estimates, more than 5,500 people were killed in 2014, 
with over 1 million Nigerians internally displaced by violence, 
and Nigerian refugee numbers in neighboring countries 
continuing to rise.
    This is why I am concerned about the government-to-
government relationship between the U.S. and Nigeria, 
particularly the ways in which mistrust have hindered the kind 
of affective cooperation necessary to end the scourge of Boko 
Haram and to help set the stage for improved security, 
particularly in the lead-up to elections.
    During Secretary Kerry's visit to Nigeria this past 
weekend, he reiterated the U.S. condemnation of Boko Haram's 
attacks and stressed the need for credibility and transparency. 
The Secretary also praised some of Nigeria's Independent 
National Electoral Commission staff for taking concrete steps 
to achieve just that end. In meetings with both President 
Jonathan and his leading opponent, General Buhari, the 
Secretary committed U.S. support for both security and election 
assistance, and received commitments from each candidate to 
administer issue-based campaigns free of violence. In the lead-
up to the February 14th elections, my hope is that those 
commitments will be met by all sides for the best outcome of 
Nigeria's citizens.
    Lastly, the Secretary praised regional nations such as 
Niger, who hosted a regional security ministerial last week, as 
well as noting President Obama's international Summit on 
Countering Violent Extremism planned to take place in 
Washington next month.
    While it is vital that these commitments to peace, 
security, and credible and transparent elections be made, it is 
now up to each of us to ensure effective coordination, improved 
diplomatic relations, and the transfer of the expertise and 
resources to realize these ends.
    I am looking forward to working with my Congressional 
colleagues, African regional bodies, and members of the 
diplomatic corps to ensure that our continued focus is on 
sustainable solutions for peace and security in Nigeria.
    Thank you. I yield back my time.
    Mr. Smith. Thank you very much.
    I would like yield to the full committee chairman, Ed 
Royce, gentleman from California.
    Mr. Royce. Thank you, Mr. Chairman. Thank you for holding 
this hearing, and I thank you and I thank Karen Bass as well 
for your trips to Nigeria.
    One of the realities here is this is a satellite image of 
the town of Baga before and after the attack, and reportedly as 
many as 2,000 people were slaughtered in this assault.
    Now, I remember conversations that I had some years ago in 
our trips to Nigeria. There was in northern Nigeria a governor 
who told us, a Muslim governor in the north, that because Gulf 
state money was coming in and establishing a new madrasa across 
the street from the madrasa where he grew up, he said, ``You 
know, it is 10 times the size. It has 100 times the budget, but 
apparently in all of these agreements there is one thing that 
comes with it: A Gulf state imam who is changing our culture, 
changing our indigenous culture, and radicalizing our youth,'' 
and I said, ``What do you mean by radicalizing?'' He said, ``If 
you went into that madrasa, you would find a bin Laden T-shirt 
on some of those young men.'' And he said, ``You know, I have a 
feeling that here in the north it is only going to be a matter 
of time before they come for me, and then they will come for my 
people, and then the slaughter will start.
    And I think today about the warnings this governor from an 
area near where Boko Haram operates gave us. I think of Deborah 
who testified before our committee, one of the survivors from 
the village, both of her parents were massacred. Now she is in 
hiding. She can't go back to Nigeria, and it took a real push, 
and, yes, Chairman Smith is right, it took a push to convince 
the administration to put Boko Haram on this list, on this 
terrorist list.
    But, frankly, Boko Haram is the ISIS of Africa. If you look 
at the political ideology, tell me the difference between what 
Boko Haram believes and what ISIS believes, and this is not an 
indigenous movement. To go back to the point the governor made, 
this is something introduced into society where children were 
radicalized and now we are to the point where children are 
being used, you know, putting suicide vests on them and pushing 
them into a marketplace.
    This has to be confronted, and, yes, it is going to be a 
tense political environment over there. Myself and Don Payne, 
who used to serve on this subcommittee with us, and Colin 
Powell, we cochaired an election observer them that went over 
to Nigeria for a prior election. I know how tough this election 
is going to be given the fact that Boko Haram is operational in 
the north as they try to conduct this election, but I will tell 
you right now, we have absolutely no alternative but to engage 
with Nigeria with the assets that we have to go after Boko 
Haram. There is no other possibility here to end this violence.
    And the Nigerian Military, despite its faults, it is the 
only feasible resource for defeating Boko Haram. We don't have 
another recourse except to use that resource that is their 
military, and we have a situation today where we have tied our 
hands. We have tied our hands so that we cannot use special ops 
and put on the ground with the type of expertise and connection 
to satellite technology and tracking abilities that our special 
operations forces have to go with the Nigerian Military and 
track down, and we should have done it immediately when those 
300 girls were captured.
    We should have tracked them. We should have assisted with 
our capabilities. No, our special ops forces don't have to be 
involved in an attack, but they can certainly, with all they 
know about how to free people from captivity, help plan an 
attack, help strategize, help key this thing up. My friends, it 
is long since time to lift the Leahy restrictions in the face 
of what confronts not just Nigeria anymore but Chad and 
Cameroon and other neighboring countries.
    This is the region now that we see engulfed in this, and 
those of us who have the capacity, the capability of coming in 
and assisting, we should assist these countries in confronting 
this challenge, and that is why I very much appreciate the fact 
that the chairman of this subcommittee and Congresswoman Karen 
Bass, the ranking member, have been engaged in this issue, and 
I hope they will push for more U.S. engagement.
    Frankly, our military is unmatched in its technical and 
capacity building capabilities, and it is a travesty not to 
have them fully engaged in supporting the Nigerians to combat 
Boko Haram.
    Thank you.
    Mr. Smith. Thank you very much Chairman Royce.
    I would like to now yield to Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Bass for holding today's hearing on this 
very critical issue.
    It is clear that Nigeria is in a very precarious situation 
as it faces its upcoming elections, increased threats of 
violence and instability from Boko Haram, and continued and 
serious human rights concerns.
    Because Nigeria is an important trading partner of the 
United States and an influential political power in Africa, its 
issues are of concern to the entire world.
    First, the continued terrorization and intimidation by Boko 
Haram is unacceptable and cannot be tolerated. The United 
States must continue to help fight the threat of Boko Haram and 
work to promote stability.
    But in our relationship with Nigeria, we must also enforce 
our expectations that the Nigerian Government is honest, fair, 
and not corrupt. We will closely monitor and must closely 
monitor the upcoming elections in the hopes that they will 
accurately reflect the will of the Nigerian people.
    And, finally, the United States must be more vigilant in 
protecting the human rights of all individuals around the 
world.
    Nigeria recently enacted a discriminatory law against 
lesbian, gay, bisexual, and transgendered individuals, and 
since then we continue to receive reports of escalated 
violence, police and government oppression, and censorship. We 
cannot continue to ignore these developments either.
    I look forward to hearing from the witness regarding the 
U.S.-Nigerian bilateral relationship.
    And with that I yield back, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Emmer.
    Mr. Emmer. Thank you. I look forward to hearing the 
testimony. I want to thank the subcommittee chair and the 
ranking member for having this hearing.
    I am looking forward to being a member of this subcommittee 
and doing some important work, and I echo the statements of the 
full committee chair on the problem that is Boko Haram.
    I look forward to your testimony today, sir, and hopefully 
seeing the United States get engaged in this important issue.
    Mr. Royce. Will the gentleman yield for just a moment in 
his opening statement?
    Mr. Emmer. Yes.
    Mr. Royce. This subcommittee hearing complements the full 
committee closed briefing that we have scheduled tomorrow with 
the Intelligence Community, and I just wanted to share that 
with the members on Nigeria and Boko Haram. So thank you.
    Mr. Emmer. Thank you. I yield back.
    Mr. Smith. Thank you, Mr. Emmer, and welcome aboard.
    Mr. Emmer. Thank you, sir.
    Mr. Smith. I would like to now introduce our first witness, 
the Honorable Robert P. Jackson. Ambassador Jackson is 
currently the Principal Deputy Assistant Secretary in the 
Bureau of African Affairs. He previously served as Ambassador 
to Cameroon, as well as Deputy Chief of Mission and Charge at 
the U.S. Embassies in Morocco and Senegal. He has also served 
U.S. Embassies in Burundi, Zimbabwe, Portugal, and Canada.
    At the State Department headquarters, he has worked in 
commercial and consular sections and conducted officer 
training. He also performed oversight work in the Office for 
the Promotion of Democracy and Human Rights after 9/11.
    Ambassador Jackson has appeared before this subcommittee 
many times, and we welcome him--and the floor is yours.

STATEMENT OF THE HONORABLE ROBERT P. JACKSON, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Jackson. Thank you very much, Mr. Chairman, and thank 
you for holding this subcommittee hearing.
    Ranking Member Bass, other members of the subcommittee, I 
want to thank all of you for the opportunity to discuss U.S. 
policy and relations with Nigeria, one of our most important 
African partners.
    With Africa's largest population, biggest economy, vibrant 
culture, vigorous democracy, and current service on both the 
U.N. Security Council and the U.N. Human Rights Council, 
Nigeria's success is important to us, to Africa, and to the 
world.
    This is especially true as Nigeria prepares to hold 
complicated and closely contested elections against the 
unwelcome backdrop of escalating bloodshed at the hands of the 
violent Boko Haram extremists in the northeast, and the 
pressures on the country's currency and fiscal balance stemming 
from falling oil prices.
    Last year I testified to your counterparts in the Senate 
saying that, in part, a peaceful and stable Nigeria is 
crucially important to the future of Africa, and we cannot stay 
on the sidelines if it stumbles.
    Today, more than ever, the United States is committed to 
our strong relationship with Nigeria, and we are engaged with 
Nigeria and its neighbors in the fight against Boko Haram. As 
Secretary Kerry said in the Lagos 2 days ago, ``The United 
States stands ready to work with Nigeria and its people, 
helping Nigeria combat insecurity in the northeast, and 
addressing its root causes, including expanding economic 
opportunity for all Nigerians and dealing with the other 
enduring challenges that will remain on our agenda.''
    Before delving further into those challenges, I would first 
like to discuss the general elections, now just 18 days away, 
because even in the face of horrifying attacks, terrorist 
organizations like Boko Haram must not distract Nigeria from 
carrying out credible and peaceful elections that reflect the 
will of the Nigerian people.
    The United States has focused significant diplomatic and 
programmatic effort on civic and political engagement 
preventing electoral violence and improving electoral 
administration. Our goal is to minimize violence, increase 
transparency, and boost credibility so that whoever wins has 
the legitimacy to lead Nigeria to address its serious 
challenges.
    Presidential and National Assembly elections February 14th 
will be followed by gubernatorial and state assembly elections 
on February 28th. Many of these elections will be closely 
contested because the consolidated opposition party, the All 
Progressives Congress, has chosen former military head of state 
Major General Muhammadu Buhari to run against incumbent 
President Goodluck Jonathan, who heads the People's Democratic 
Party.
    Nigeria's elections are among the earliest of many across 
the continent in 2015, and can serve as an example to other 
countries. Organizing elections for over 69 million voters at 
more than 120,000 polling stations is no easy task. The 
Secretary's trip to Nigeria just weeks ahead of the election to 
meet with the candidates was intended to send a strong signal 
that we appreciate the enormity of the challenge and are 
invested in its peaceful outcome.
    We are working closely with Nigeria's independent election 
commission, INEC, on processes to ensure as many eligible 
voters as possible are free to exercise their civic duty 
safely. We are doing everything we can to support the efforts 
of INEC and its respected chairman, Attahiru Jega, as they 
distribute voter registration cards and electronic card 
readers, develop a communications plan, and prepare plans for 
dispute resolution and violence mitigation.
    To increase the transparency of the electoral process and 
our ability to assess its credibility, the United States 
Government is funding and fielding complementary election 
observation missions across the country. USAID has had a 
program to strengthen Nigeria's capacity to observe its own 
elections.
    Over 3,000 locally recruited U.S. Government funded 
election observers in all 774 local government areas in the 36 
states and the Federal Capital Territory are already working 
hard gathering data and monitoring for early warning signs of 
electoral violence. We are also funding a 36-member 
international electoral observer mission conducted in tandem by 
the National Democratic Institute and the International 
Republican Institute.
    On top of this, Assistant Secretary of State for African 
Affairs, Linda Thomas-Greenfield, will lead our diplomatic 
election observation on February 14th, and election observation 
missions based within the U.S. Mission in Nigeria will field 
observation teams throughout the country during these general 
elections.
    Moreover, a U.S. Government security expert will soon make 
a third trip to Nigeria joining two long-term U.S. security and 
strategic communications advisors who are supporting INEC.
    Following the 2011 elections, 800 people died during 3 days 
of protests. Ambassador James Entwistle and his team have led 
an aggressive campaign to persuade Nigerian candidates, 
political party leaders, and opinion makers to pledge publicly 
to condemn violence.
    During his visit, Secretary Kerry reiterated to both 
President Jonathan and General Buhari that the world is 
watching Nigeria's elections and prevailed upon them to 
encourage their followers to commit to nonviolence. He welcomed 
the signing by both of the January 14th Abuja Accord, as it is 
called, on nonviolence and their agreement to accept the 
results of the election.
    Allow me to turn to Boko Haram. A peaceful and smooth 
transition is equally essential so that whoever is elected can 
quickly turn his focus to confronting and defeating Boko Haram. 
The threat is, unfortunately, not new, but attacks have 
increased in intensity and impact, as well as expanding to 
threaten Cameroon, Chad, and Niger. Recent estimates are that 
some 1 million Nigerians have been displaced internally, and 
more than 200,000 have sought refuge in neighboring countries. 
We are appalled by the accelerated pace and brutality of Boko 
Haram's attacks. This unchecked killing must stop.
    We agree that Boko Haram has killed more than 5,000 people 
in 2014, doubling in 1 year all of its killing since 2009. The 
trend of attacks has continued unabated this month. The 
satellite images from the destruction in Baga in early January 
demonstrate the rampage, and have indeed gone viral.
    An unwitting 10-year-old girl was blown in half when the 
device around her waist detonated the edge of a market in 
Maiduguri on January 10th, killing 19 other people. The next 
day two other young female suicide bombers struck Potiskum, 
killing at least six others. Just last week on January 20th, 
Boko Haram's leader, Abubakar Shekau, claimed responsibility 
for the attack on Baga, and warned, ``This was just the 
beginning of the killings,'' and threatened to wage war on 
neighboring Cameroon, Chad, and Niger.
    We are often asked why Nigeria has been unable to curb Boko 
Haram's advances. The answer is a complex mix of reasons. 
Public critics and Nigerian Military sources have cited 
pervasive corruption that prevents the Nigerian Armed Forces 
from properly equipping front line soldiers. Government 
officials have responded to criticism by highlighting the 
tremendously difficult task of fighting a well-armed insurgency 
that hides within local communities and noting that their 
forces have not been trained in counterterrorism.
    Last week one of Nigeria's top security officials called 
Nigerian forces cowardly. Most recently Nigeria's failure to 
send a senior official to Niamey, Niger for a January 20th 
ministerial on Boko Haram hindered the ability of all of the 
affected countries to craft an effective regional approach to 
the problem. The United States, however, was in Niamey, and we 
will continue to support Nigeria and its neighbors as they 
address the violence caused by Boko Haram.
    At the same time, Nigeria must commit to a comprehensive 
holistic strategy for countering Boko Haram that protects 
civilians, respects human rights, and addresses the underlying 
causes of the conflict by bringing both civilian and security 
tools to the fight. We are supporting Nigeria and its neighbors 
to counter Boko Haram.
    U.S. assistance includes information sharing and technical 
assistance. We have provided commercial satellite imagery and 
are flying intelligence, surveillance, and reconnaissance 
aircraft over Nigeria and immediately sharing the results of 
those missions with Nigerian authorities on an almost daily 
basis.
    We have also helped establish a program to provide care, 
counseling, and education to the victims of Boko Haram, and are 
providing humanitarian assistance to conflict-affected and 
internally displaced populations in the northeast, as well as 
to Nigerian refugees who fled to neighboring countries, 
including Cameroon, Chad, and Niger.
    Boko Haram is not just a Nigerian problem. It is a regional 
problem. Most recently Boko Haram kidnapped 80 people on 
January 18th, 30 adults and 50 young girls and boys, in a 
cross-border attack in Cameroon. Although the Cameroonian 
forces were subsequently able to repel the attackers and free 
24 of the hostages, Boko Haram's largely unchecked success in 
seizing territory and expanding the reach of its attacks 
underscores the need for a robust coordinated regional 
approach, a fully realized multi-national task force to fight 
Boko Haram.
    Last week Chad sent more than 2,000 soldiers, 400 trucks, 
and attack helicopters to reinforce Cameroon. At last week's 
ministerial meeting in Niger, Assistant Secretary Thomas-
Greenfield called on Nigeria and its neighbors to make the 
multinational task force into a force that can better fight 
Boko Haram. At the African Union summit in Addis Ababa this 
week, we will continue to encourage other partners to redouble 
their efforts and press for meaningful African Union political 
support for the task force and the Lake Chad Basin Commission 
to cooperate to defeat Boko Haram.
    As Assistant Secretary Thomas-Greenfield told this 
subcommittee in November 2013, Boko Haram's activities call our 
attention not just to violence but also to poverty and 
inequality in Nigeria. Achieving and sustaining peace in the 
northeast of Nigeria will require the Nigerian Government to 
address legitimate concerns about government corruption, 
unfairness, accountability, and impunity that alienate the 
population and provide grievances used to radicalize 
disaffected youth.
    Finally, let me say just a word about the economy. Nigeria 
has the largest economy in Africa, and it is diversified. 
Eighty-three percent of that economy is in non-extracted 
industries. Agriculture, services, and manufacturing are 
driving economic growth which was 6.1 percent in the third 
quarter of last year and is expected to be 4.8 percent in 2015.
    Although the country is a global petroleum powerhouse, 
corruption is pervasive, and 60 percent of Nigeria's population 
lives in poverty. The impact of a more than 50 percent drop in 
oil prices since last summer has posed major fiscal and 
monetary challenges and is contributing to the slowdown in 
economic growth. The Central Bank has thus devalued the Naira 
and raised interest rates. Over 70 percent of government 
revenue comes from petroleum exports. So the government has 
been forced to revise its budget, cut government spending, and 
look for ways to increase revenues.
    The administration that is elected next month may well face 
greater challenges with fewer resources to govern. Improving 
governance, implementing economic reforms, and committing to 
transparency would help secure Nigeria's long-term stability 
and the welfare of its people.
    In closing, Nigeria's success is important to us and 
critical to Africa. As Secretary Kerry declared in Lagos last 
Sunday, our hope is that Nigeria will set a remarkable example 
for the world in this election.
    On the Foreign Terrorist Organization designations, Mr. 
Chairman, we are not aware of any assets that have been 
blocked, but we do feel that these designations have been 
potentially useful in preventing Boko Haram from accessing U.S. 
financial institutions.
    And I do want to emphasize as far as the search for the 
girls is concerned, we continue to provide intelligence. We 
still have a multi-disciplinary team in Abuja advising the 
Nigerians, meeting with them, and the FBI continues to assist 
with investigations and we are assisting with countering IEDs.
    We appreciate the committee's interest in these issues. I 
hope that you and the other members will remain engaged, and I 
invite you to lend your voices by making statements and talking 
to social media in calling for peaceful and credible elections 
next month.
    Thank you, and I welcome your questions.
    Mr. Smith. Thank you, Mr. Jackson.
    [The prepared statement of Mr. Jackson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Smith. And I will collapse all of my questions into one 
question, if you wouldn't mind, just because of time. We have 
votes coming up very shortly. We think 3:15 to 3:30.
    Let me ask you if I could, on the Chibok girls, do we have 
information about them? I have met Chibok girls, one in Abuja 
when I was on a trip there. I met several who escaped, the 
lucky ones. Are we any closer to reclaiming their freedom?
    Secondly, if I could, on the FTO progress, if you could 
tell us how many people are actually working it. Is it really 
getting a high priority? We know that the weapons cache of Boko 
Haram is growing, maybe even exponentially. Some of it they 
steal, some of it they buy from robbing banks, but some of it 
may be coming from places in the Middle East. If you could 
touch on that.
    We are all very pleased and happy that Secretary Kerry did 
meet with President Jonathan. I read both the President's and 
the Secretary's statements, and there was talk about the 
multinational task force, the Lake Chad Basin Commission, and 
about more and more cooperation.
    Let me ask you this. Is it time for a U.S.-Nigeria task 
force? I was struck when I was at the fusion center that 
intelligence that we might provide that was actionable may not 
have been followed up on. You know, you need a quick deployment 
of troops if you find something that needs action, and it seems 
to me that, and on the Leahy amendment, why not have a joint 
working group to focus on vetting Nigerian security forces?
    Some of the pushback has been a well-earned pride in the 
Nigerian Military. They are tremendous peacekeepers. I saw them 
when I was in Sarajevo. I saw them again in Darfur. They have 
gone all over and have done yeoman's on peacekeeping, but, 
again, it is a very special skill set required to combat a 
terrorist insurgency like this with Boko Haram. Why not have a 
joint working group on the vetting as well so they have buy-in. 
Is that something you are thinking about?
    And again on IDPs, more money I think needs to be provided. 
Yes, Nigeria is a rich country, but it does have a problem, as 
we all know, with those drop in oil prices.
    And, finally, Abubakar Shekau has said, ``Nobody can stop 
us and live in peace except if you accept Islam and live by 
Sharia law.'' He has said, ``We will kill anyone who stands 
against the will of Allah by opposing Sharia,'' and that they 
are fighting a religious war against Christians, these are all 
quotes, and that by Allah whoever practices democracy we will 
kill.
    Will the administration really brand them for what they 
are, a radical Islamist movement? I met so many Muslims who 
have lost loved ones in Nigeria, many more Christians, because 
they are targeting Christians. They are a horrific brand of 
Islam, a radical brand. I think we need to call it for what it 
is, and, again, I know Buhari has signed, as well as President 
Jonathan, the Abuja Accord, but let's not forget after 2011, 
700 churches, 3,100 Christian-operated business and schools 
were burned, over 3,400 Christian homes were destroyed.
    How enforceable, how real, do you think he and his 
followers are in living up to that accord so that thereis not 
post-election violence? And that is critical, I think. Anybody 
can sign a piece of paper in the run-up to election. Do you 
have confidence that he will adhere to it?
    I yield.
    Mr. Jackson. So Mr. Chairman, thank you for those 
questions.
    On the Foreign Terrorist Organization designation, I am 
going to have to get back to you on the numbers of people at 
the Treasury Department and the Justice Department who are 
working on this because I don't have those figures immediately 
available.
   Written Response Received from the Honorable Robert P. Jackson to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    An FTO designation, once complete, provides the legal basis for the 
Departments of Justice and Treasury to ensure that U.S. citizens are 
prohibited from providing material support to Boko Haram and that the 
organization is blocked from using the U.S. formal financial system. 
Numerous staff in many agencies across the U.S. Government work to 
develop and implement designations. Countering Boko Haram is a foreign 
policy priority and we are constantly working with a host of key allies 
to counter the group's influence in Africa.
    We have offered up to $7 million from our Rewards for Justice 
Program to bring Boko Haram's current leader to justice. To the extent 
that groups like Boko Haram are funneling the financing for their 
barbarous acts through U.S. financial institutions, we are prepared to 
freeze their assets. As you rightly point out Boko Haram's funding 
streams are much less formal--derived primarily from the proceeds of 
looting and kidnapping innocent civilians for ransom.

    Mr. Jackson. As far as a joint task force, I think you 
visited the center of a joint task force, and I want to note 
that France is working with Nigeria's neighbors to establish a 
coordination cell in N'Djamena that we believe will be very 
useful in this fight, and it is already showing promise in 
coordinating the activities of Cameroon and Chad as they work 
together in this activity.
    Mr. Smith. But, I mean, across all sectors.
    Mr. Jackson. I understand.
    Mr. Smith. The entire military complex, not just 
intelligence. Strategy as well.
    Mr. Jackson. Right. But our Justice Department is 
represented in Lagos as part of the interdisciplinary team. The 
FBI is there. We have people who can advise on hostage 
negotiations and humanitarian assistance. I believe that the 
team is robust and of the disciplines necessary to address 
these issues.
    As far as Leahy issues are concerned, I note that the 7th 
Division, which has had primary responsibility for combating 
Boko Haram, has a new commander. So we will be looking at how 
we can work with Nigerian units. As you know, we vetted over 
100 units and individuals last year who were found capable of 
working with us and qualified to receive U.S. assistance and--
--
    Mr. Smith. Mr. Jackson, they need thousands, and they are 
very capable troops. They can be human rights vetted. The State 
Department has said 50 percent or more tomorrow could be vetted 
and found to be free of human rights abuses. They need that 
training and they need it now. We are fighting the ISIS of 
Africa. So bring that urgency back if you would.
    Mr. Jackson. I will take that back, Mr. Chairman, and you 
asked about branding Boko Haram. I would note that Daesh and 
al-Qaeda in the lands of the Islamic Maghreb have disassociated 
themselves from Boko Haram because they consider it such an 
extreme organization.
    Mr. Smith. Ms. Bass.
    Ms. Bass. I will yield my time to Representative Wilson to 
make her statement.
    Ms. Wilson. Thank you, Chairman Smith and Ranking Member 
Bass, and thank you to our witnesses for being here today to 
discuss this very important issue.
    Last April I was horrified when hundreds of girls were 
kidnapped by Boko Haram because they attended school. These 
precious girls reminded me of my own daughters and 
granddaughter, and I couldn't sit idly by.
    To this day, Boko Haram continues their reign of terror. 
There have been more kidnappings. They are using young children 
as human bombs. They continue murdering and terrorizing, and 
they attack villages and cities throughout Nigeria and 
bordering countries.
    Last June I was part of a bipartisan codel that traveled to 
Nigeria where I met with the victims of Boko Haram attacks and 
with the families of the kidnapped girls. I saw firsthand the 
immeasurable anguish that Boko Haram's heinous attacks have 
caused. I met with some of the Chibok girls who were fortunate 
to escape from Boko Haram. These girls thought they were going 
to be killed and their parents thought they may never see their 
daughters again.
    I met with the organizers of the Bring Back Our Girls 
campaign who made it their mission to call attention to the 
atrocities committed by Boko Haram, to call for the return of 
the kidnapped girls, and to hold Nigerian leaders accountable. 
They did this despite being intimidated, beaten, and imprisoned 
for their efforts. They asked us to carry on and spread their 
work in the U.S. by tweeting ``Bring Back Our Girls,'' which I 
have been doing every day since leaving Nigeria.
    Nigeria has the resources to stop Boko Haram, I believe, 
but there is a lack of political will to do so or do what is 
necessary to rescue the schoolgirls.
    I will be watching Nigeria's Presidential elections next 
month. I pray these elections are fair and free from any 
violence or coercion. Regardless of which candidate wins, we 
must continue to put pressure on that winner to focus on Boko 
Haram and to finally eradicate this terrorist group.
    Last Congress we passed two resolutions that I sponsored 
condemning Boko Haram. I thank the committee for their 
commitment to work with me to accomplish the goal of 
eradicating Boko Haram.
    Today you will hear from Mr. Emmanuel Ogebe. His 
organization, Jubilee Campaign USA, does amazing work on behalf 
of the Chibok girls who escaped from Boko Haram, paying for 
them to come to the United States to continue their education 
in a safe environment. I look forward to hearing from him as 
well as our other witness.
    Thank you. We must do everything we can to bring back our 
girls and stop Boko Haram.
    Mr. Smith. Thank you, Ms. Wilson.
    Mr. Emmer.
    Mr. Emmer. Mine is very short. What is being done about the 
corruption and what can be done? It seems that you are talking 
about pervasive corruption throughout the government and its 
impacting the military's ability to stifle the activities of 
Boko Haram. I am just interested to know what is being done and 
what can be done?
    Mr. Jackson. Thank you, Congressman.
    For a number of years we have been working with Nigeria's 
anti-corruption agencies, and we have seen some successful 
investigations as a result of that.
    A tool that the Secretary talked during his most recent 
visit to Nigeria that we believe will be very useful is 
designating people as ineligible for U.S. visas. There has been 
a lot of attention paid to this in the Nigerian press over the 
last 2 days, and that indicates to me that this is something we 
need to explore in greater depth.
    Mr. Emmer. And I would like to have more at the appropriate 
time, but if you could go back, at the beginning of your 
testimony, in fact I think in your written testimony, it is at 
the end of page 1, beginning of page 2, where you talk about 
the upcoming election that is only 18 days away, and 
specifically I think your words were making sure that it is 
credible and transparent, et cetera.
    It is the violence that I think many of us are most 
concerned with. You can have election experts, you can have 
U.S. aid to have the local folks actively engaged, but when the 
killing starts, how do you allow a true democratic process to 
go forward, and are steps being taken on the ground to address 
that potential violence?
    Mr. Jackson. The primary reason for having the Secretary 
visit Nigeria so close to this election was to emphasize that 
we are concerned about the conduct of the election and cannot 
accept violence. And we have been hammering home that message. 
We have sent the security experts to work with the election 
commission to identify the areas that we think are most prone 
to violence.
    But I want to underscore that in previous Nigerian 
elections it hasn't been the elections themselves that have 
been violent in recent years. It has been after the results 
were announced, and this is something that we need to remain 
focused on. This is why we have solicited pledges from the 
candidates, why we value the Abuja Accord which was signed in 
the presence of former U.N. Secretary General Kofi Annan, and 
we will absolutely sanction leaders who exhort their followers 
to engage in violence.
    Mr. Emmer. One more, Mr. Chair.
    Just on that note, this is different. I understand that the 
800 in the last election were during the protests that 
followed, but Boko Haram has an incentive to disrupt the 
election as it occurs, and I guess I am interested if you can 
give me some specific examples, Mr. Jackson, of things that are 
being done in anticipation of that to prevent, hopefully 
prevent the violence on the day of the election?
    Mr. Jackson. Congressman, what I can say is that we have 
worked with the Nigerian election commission, the security 
forces, to ensure that the polling proceeds as smoothly and as 
safely as possible. Clearly in the three states under the state 
of emergency the voting places will have additional security. 
Whether that will be sufficient is subject to what Boko Haram 
does over the period of the election, and we are watching this 
very carefully. We will use our intelligence assets to try and 
predict where violence might break out, but it is not an exact 
science.
    Mr. Emmer. Thank you, Mr. Jackson.
    I yield back, Mr. Chairman.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Actually, I will yield to Mr. Cicilline.
    Mr. Cicilline. I thank the gentlelady for yielding.
    Thank you, Ambassador Jackson. Could you speak a little bit 
about what efforts are being undertaken to work with state and 
local officials in light of the kind of tense relationship with 
the national government to both work on security issues as well 
as counter-violence strategies.
    And also would you speak a little bit about whether there 
are local organizations or individuals that we are working with 
to help counter some of the kind of violent ideology and the 
radicalization.
    And then finally if you would speak to the issue of human 
rights following the passage of anti-LGBT laws in Uganda, the 
United States engaged in a review that resulted in 
implementation of several counties relating to gross human 
rights violations, and I know that the review of Nigeria, if it 
would occur, would be different, but why aren't we in fact 
taking the same steps in Nigeria to at least open a review and 
see what changes could be enacted to send a message to the 
government there?
    And what steps has our Embassy in particular taken to help 
push back against some of the very serious homophobia and 
transphobia and to protect LGBT people in Nigeria from serious 
acts of violence?
    Mr. Jackson. Thank you, Congressman.
    First of all, on the violence, we have been working not 
only with the election commission but with civil society. We 
have had civil society training programs as part of our $51 
million elections effort over a 4-year period. That, I think, 
has been useful. We have also had a program financed through 
our Civilian Stability Operations Bureau and we have worked 
with imams and other religious leaders in order to encourage 
them to speak out against the violence.
    We have particularly tried to identify religious leaders 
both Christian and Muslim, and animists in the north who we 
believe have great influence with the people, and in the south 
we have worked with some of the most prominent religious 
leaders, especially with bishops to get out anti-violence 
messages to their congregations, and that is ongoing.
    We also undertook a rather unique anti-violence activity in 
the delta which was previously a hotbed for violence, and that 
was to create a film called ``Dawn in the Creeks: A Niger Delta 
Legacy.'' This film is an ongoing television series as a result 
of its success, and it advertises how Nigerian youth can find 
opportunities for employment and a new life outside of oil 
bunkering. It has been very successful, and we believe it is a 
model for this kind of activity and something of which the 
State Department is very proud.
    Finally on the LGBT issue, which is a very serious one, we 
note that Nigerian authorities have generally not enforced the 
law since its passage. Initially there was some really serious 
anti-LGBT activity, but that waned very quickly. We are aware 
that the law's being challenged in the courts as it was in 
Uganda, and we believe that pursuing the constitutionality of 
the law or the lack thereof is a way to address this issue.
    We meet with LGBT groups on a regular basis. When I was in 
Nigeria in October, I met with LGBT activists to get their 
sense, and I would be happy to talk with you privately about 
some of the other things we are doing that I would prefer not 
to discuss in this setting.
    Mr. Cicilline. I appreciate it. Thank you.
    I yield back, Mr. Chairman.
    Mr. Smith. Mr. Clawson.
    Mr. Clawson. Two questions, and thank you for coming today.
    Will you go back a little bit to what you said about youth 
employment and give me a larger picture of this issue of 
poverty being utilized to radicalize youth and what the 
Nigerian Government is doing on a larger scale educationally 
and in the private sector so that folks have something to look 
forward to and hope as opposed to being radicalized?
    And I guess the second question I have, since this is a 
question of radical Islam, what are the other religious leaders 
doing in the country to promote peace, to promote tolerance, 
and especially peace coming up to these elections, and what 
would you recommend that they do in this respect?
    Thank you.
    Mr. Jackson. Thank you, Congressman.
    So with an extreme poverty rate of 60 percent of the 
population, we believe that many Nigerians are disaffected and 
prone to radicalization, and the rampant corruption, impunity 
of the security forces and accountability for actions of all 
government officials, be they security officials or other 
government officials, pose real challenges and contribute, we 
think, to Boko Haram's being able to manipulate a small number 
of Nigerians to follow it.
    As for what religious leaders are doing, whether Christian, 
Muslim, or animist, in general they have played a very 
important role in preaching messages of nonviolence for the 
elections and for Nigeria's activities in general, and many of 
them have spoken out very forcefully against Boko Haram, and I 
expect they will continue to do so.
    Mr. Clawson. Yield back.
    Mr. Smith. Thank you. Ms. Bass.
    Ms. Bass. Yes. Thank you, Mr. Chairman.
    I want to acknowledge that last week I had a long telephone 
conversation with Finance Minister Okonjo-Iweala, and we talked 
about what was going on in Nigeria, and there were a lot of 
concerns expressed that she felt like things were being 
characterized in too much of an extreme fashion here, 
especially given the sensitivity of having an election coming 
up in a couple of weeks, to characterize a hearing as ``Nigeria 
on the Brink?'' She just felt it sends a bad signal.
    She raised an issue that the United States is blocking 
Nigeria from purchasing arms because of human rights 
violations, and so I wanted to ask you about a couple of 
questions. What specific criteria would the U.S. Government 
need to see from the Nigerian Government to determine that they 
are sufficiently working to remedy the human rights violations.
    And then also what you feel is the sentiment of northern 
Nigerian communities toward the Nigerian Army, and is the 
distrust between them harming the efforts to root out Boko 
Haram? That is one question. I have a few others.
    Mr. Jackson. Did you want me to respond at this point?
    Ms. Bass. I do.
    Mr. Jackson. All right. Thank you.
    So when we talk about ``Nigeria on the Brink?,'' I think 
another way to look at that is Nigeria on the cusp, and much 
depends on what it does with the elections. The conduct of the 
elections and the government that emerges from those elections 
has real opportunities as well as challenges, and as the 
Secretary said, we hope they will seize those opportunities and 
address the challenges.
    The arms question is a very good one. While the decision to 
not approve the sale of American-manufactured Cobra helicopters 
that the Israeli Government wished to sell to Nigeria was 
driven by a belief that the Nigerians did not have the capacity 
to operate them, we have the policy and are in fact providing 
lethal equipment, and we will look at each request on a case-
by-case basis.
    But Congresswoman Bass, I really want to underscore, we 
believe Nigeria has both the financial means and the technical 
means to procure any weapons that it believes it needs for its 
self-defense, and our decision to influence certain sales is 
guided as much by what we believe the capacity to use those 
weapons is as much as anything else. I want to emphasize that--
--
    Ms. Bass. You don't think they know how to fly them?
    Mr. Jackson. They do not currently have the capacity to fly 
Cobra helicopters. It would take at least 6 months for them to 
do the necessary training, and it would require that about 80 
people be trained to maintain them.
    However, the Chadians are successfully employing their 
helicopters, which are armed, against Boko Haram, and it shows 
that it can be done, and the Nigerians could potentially do it 
with the right training and weapons.
    The problems that the Armed Forces of Nigeria face are in 
terms of morale, in terms of supply chains. We often hear from 
soldiers who have entered Cameroon fleeing Boko Haram that they 
haven't eaten for days, that they are not well-equipped, and 
these are challenges for governance and leadership, and we 
would like to see the military address these challenges, deal 
with the internal corruption, and we believe that would have as 
much impact on the fight against Boko Haram as any weapon 
system possibly could.
    Ms. Bass. Will you comment about the north?
    Mr. Jackson. I will.
    We have all seen pictures of alleged Nigerian security 
force abuses. This is why we believe the Leahy vetting process 
is so important for dealing with the Nigerian security forces, 
but we have approved, as I said, more than 100 individuals and 
units. And when we talked about that we were training an entire 
battalion. We are talking about thousands of people, not just 
hundreds of people.
    When you look at the units, we are talking about having 
vetted thousands of people, thousands of individuals. So there 
are plenty of people who are eligible for U.S. security 
assistance, and yet it was Nigeria who chose to prematurely end 
the training of the 143rd in October before we felt they were 
fully capable, but they had been deployed, and that was a 
Nigerian sovereign decision.
    Ms. Bass. So, I was asking you a question about 
relationships between those folks that live in the north and 
the military. I don't know if you want to----
    Mr. Jackson. So, we believe that some people have had 
excellent relations with the military. Other people feel 
abandoned by the military, and I think both of those extremes 
are very real in the three states under state of emergency.
    Ms. Bass. So this is an entirely different subject, but, 
you know, if the general topic here is ``Nigeria on the 
Brink?,'' I wanted to ask you if you were aware of reports of 
plans to privatize water in Lagos and across the country, and 
given how important fulfilling basic human rights can be in 
reducing the potential for violence, how would the negative 
effects of water privatization? Are you aware of this, is the 
U.S., and is there any relationship we have? Is there any 
concern about this?
    Mr. Jackson. Honestly, Congresswoman, I am going to have to 
get back to you on the water privatization. We have been 
following the electricity law and the new efforts to make 
electricity more available in Nigeria, and Nigeria is a Power 
Africa country, but I have personally not followed the water 
issue.
   Written Response Received from the Honorable Robert P. Jackson to 
     Question Asked During the Hearing by the Honorable Karen Bass
    Water is a hugely politicized issue in Nigeria. Politicians use 
promises of free water to garner votes. There is some recognition that 
private sector participation will lead to improved reliability and 
quality of water. However, Cross Rivers is the only state with a 
privatized water utility and the only state with 24 hours of water 
available a day. Other states, such as Rivers, are considering such 
reform, but resistance is strong. Five years ago, Lagos had a failed 
experience privatizing its water sector. We have supported efforts to 
increase privatization of water and will continue to do so.
    With respect to privatization, a strong regulatory framework is 
critical, as well as a transparent and competitive tender process. 
Currently, the poor, unlike the wealthy in Nigeria, do not have 
connections to subsidized water and must buy their water from local 
vendors.
    Nigeria is a Tier 1 country for our Sustainable Water for All 
initiative and will see an increase in resources to promote water 
privatization in Nigeria. Over the past five years, we have worked with 
a modest budget in Bauchi, Ebonyi and Rivers state to: (1) revise state 
water laws; (2) strengthen the operational capacity of state water 
boards (billing, maintenance, and investment); (3) conduct public 
outreach campaigns on the necessity of paying water bills, and; (4) 
advise stakeholders and decision makers on various institutional models 
for better managing the water sector.

    Ms. Bass. Okay. Thank you.
    I will yield back my time.
    Mr. Smith. Mr. Pittenger.
    Mr. Pittenger. Thank you for giving me this time.
    Mr. Jackson, thank you for your service and dedication.
    Since declaring Boko Haram as a Foreign Terrorist 
Organization, has there been any evidence or progress in this 
investigation of uncovering those who are providing aid and 
abetting this terrorist group?
    Mr. Jackson. To date, Congressman, we have not found any 
U.S. individuals or financial institutions that are aiding Boko 
Haram or allowing Boko Haram finances to flow through our 
financial system.
    Mr. Pittenger. Thank you.
    Has the administration found any connection between the use 
of the girls unwittingly suicide efforts that have been 
kidnapped by Boko Haram, and do you believe that any Chibok 
girls may have been used in this manner?
    Mr. Jackson. There has been a lot of speculation about 
this, but I don't think we have confirmed that any of the 
children who participated in the suicide bombings, certainly 
involuntarily, were from Chibok.
    I would note that there are four Chibok girls who are now 
resident in the United States, and we have certainly talked 
with them about their experience and we make an effort to 
debrief people who have been in Boko Haram activity.
    Cameroon has done a great job of debriefing hostages, and 
we encourage the Nigerians to follow suit.
    Mr. Pittenger. Thank you. I yield back.
    Mr. Smith. Thank you.
    If I could, just for clarification, Mr. Jackson. As you 
know, there are fundamental differences in the United States 
over the whole LGBT issue. I am a strong believer in 
traditional marriage and do not construe homosexual rights as 
human rights. Others have a different view, and I certainly 
respect them. But I want to know, has the administration, and I 
would ask for a clarification on this, has the administration's 
view on LGBT affected in any way or in any way hindered U.S. 
support to Nigeria to combat Boko Haram?
    And, secondly, when it comes to humanitarian aid and money 
for IDPs and money for health issues, has the administration 
held back or in any way affected funding to the faith 
community, whether it be Muslim or Christian, in the 
dissemination of those funds to combat malaria or any other 
problems faced by Nigerians?
    Mr. Jackson. Mr. Chairman, to my knowledge there has been 
no impact to the same sex marriage prohibition bill on any of 
our activities, be it financial assistance, humanitarian 
assistance, or what organizations we work with in Nigeria.
    Mr. Smith. I appreciate that. Could you also, I know that 
is your reasoned opinion, but get back to us if there is 
anything that would contradict that?
    Mr. Jackson. I will be happy to inquire, but I feel quite 
clear, since I see all of our assistance numbers, but I would 
have to check on whether we have decided not to work with any 
specific organizations. But I will get back to you.
   Written Response Received from the Honorable Robert P. Jackson to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    Christian and Muslim institutions and groups are key partners in 
addressing health problems in Nigeria. For example, the President's 
Malaria Initiative works very closely with the Nigerian Interfaith 
Action Association (NIFAA)--a collaborative initiative of the Christian 
Association of Nigeria and the Sultan of Sokoto (as head of Islamic 
community in Nigeria)--to promote awareness in their communities on how 
to fight malaria and other health risks. No funding has been withheld 
or redirected as a result of the passage of the Same Sex Marriage 
(Prohibition) Act.

    Mr. Smith. Good.
    And finally, again on the U.S.-Nigeria task force idea, if 
you could follow up and get to us on that as well. This would 
be a multidimensional approach to get complete and full buy-in 
from the Nigerians. I think for whatever reason, there was a 
cessation of the training of their military. That needs to be 
resumed. We have got to find out what it was that encumbered 
that and get back so that hopefully thousands of Leahy-vetted 
Nigerian soldiers and officer corps can get the training they 
need to vanquish Boko Haram.
    Mr. Jackson. Mr. Chairman, I will get back to you. As the 
Secretary noted, we believe that having peaceful and credible 
elections is a condition for greater engagement, and we want to 
get through that step first.
   Written Response Received from the Honorable Robert P. Jackson to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    In addition to our daily interactions with the Nigerian government, 
often at quite high levels, the United States engages regularly with 
Nigeria via the U.S.-Nigeria Bi-National Commission (BNC). Launched in 
2010 with four specific working groups, the commission now encompasses 
five lines of effort: good governance and transparency; energy and 
investment; agriculture and food security; and the Niger Delta and 
Regional Security Working Group, which was subsequently split into two 
components. Assistant Secretary of State for African Affairs Linda 
Thomas-Greenfield led the U.S. delegation to the meeting of the BNC's 
Regional Security Working Group in September 2014.
    Nonetheless, we were disappointed last November when the Nigerian 
government cancelled the training by the U.S. government of a Nigerian 
Army battalion. Citing differences over timelines and pre-requisites 
such as equipment, the Nigerian government prematurely terminated the 
third phase of a training of a Nigerian Army battalion (the 600-strong 
143rd) designed to strengthen the Nigerian Army's capacity to counter 
Boko Haram. The first two phases of training were conducted between 
April and late August 2014, giving personnel basic soldiering skills. 
The canceled third iteration of training was to develop a unit with 
advanced infantry skills. The cancellation, while regrettable, does not 
affect the ability of the U.S. government to continue other aspects of 
our bilateral security relationship, as well as all other assistance 
programs, with Nigeria. The U.S. government is committed to the long 
tradition of partnership with Nigeria and will continue to engage 
future requests for cooperation and training. We continue to seek other 
opportunities to help Nigeria and its neighbors to counter Boko Haram.
    As Secretary Kerry said in Lagos on January 25, however, ``We don't 
believe that the level of support provided by the United States or the 
international community is the limiting factor in the Nigerian 
Government's ability to fight Boko Haram.''

    Mr. Smith. Thank you so much, Mr. Jackson.
    I would like to now, because we are under a little bit of a 
time crunch, welcome our second panel, and I thank you, Mr. 
Jackson, for your testimony.
    Beginning with Dr. Peter Pham, who is the director of the 
Africa Center at the Atlantic Council in Washington, DC. He is 
the incumbent vice president of the Association for the Study 
of the Middle East and Africa, an academic organization which 
represents more than 1,000 scholars, and is editor in chief of 
the organization's Journal of the Middle East and Africa.
    Dr. Pham was the winner of the 2008 Nelson Mandela 
International Prize for African Security and Development. He 
has authored half a dozen book chapters concerning Somali 
piracy, terrorism, and stabilizing fragile states, as well as 
more than 80 articles in various journals. He has testified 
before our subcommittee on several occasions on a number of 
topics, and we welcome him back.
    We will then hear from Mr. Badejo, who is a principal 
partner of a law firm in Nigeria established in 1987 in which 
he has acted as legal consultant and company secretary to many 
blue chip companies and orthodox religious bodies in Nigeria.
    Between 1981 and 1987 he worked with the firm Burke and 
Company in Lagos where he was the head of chambers between 1985 
and 1987. He was awarded the rank of senior advocate of Nigeria 
by the Legal Practitioners Privileges Committee in 2010. This 
title is conferred only to a very select group of very senior 
attorneys in Nigeria.
    We will then hear from Mr. Emmanuel Ogebe, who is the 
manager of the Peaceful Polls 2015 Project, and an experienced 
attorney specializing in international matters of focusing on 
Nigeria.
    Exiled to the United States after becoming a political 
detainee during the brutal years of Nigeria's military 
dictatorship, Mr. Ogebe has played a role in shaping U.S. 
policy toward Nigeria in its quest for democracy. His is 
experienced in managing, designing, and implementing complex 
international programs and projects in Nigeria.
    Then we will hear finally from Mr. Chris Fomunyoh, who is 
senior associate and regional director for central and west 
Africa at the National Democratic Institute. He has organized 
and advised international election observation missions and 
designed and supervised country-specific democracy programs and 
civic organizations, political parties, and legislative bodies 
throughout central and west Africa.
    He recently designed and helped launch the African 
Statesman Initiative, a program aimed at facilitating political 
transitions in Africa by encouraging former democratic heads of 
state. He is also the adjunct faculty at the African Center for 
Strategic Studies and former adjunct professor of African 
politics at Georgetown.
    Dr. Pham.

  STATEMENT OF J. PETER PHAM, PH.D., DIRECTOR, AFRICA CENTER, 
                        ATLANTIC COUNCIL

    Mr. Pham. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Bass, distinguished members of 
the subcommittee, thank you not only for the opportunity to 
come before you today to discuss the present situation in the 
Federal Republic of Nigeria, but also for the sustained 
attention which the subcommittee has consistently dedicated to 
west Africa as a whole and to Nigeria in particular, as well as 
for its solicitude for the challenges facing that region by the 
United States and our African and other partners.
    I think I speak for many in the policy and advocacy 
communities in expressing our gratitude for the leadership 
which the chairman, the ranking member, and members of the 
subcommittee and its staff have shown, including no fewer than 
three hearings in the 113th Congress, including the one last 
June on ``The Ongoing Struggle Against Boko Haram'' which you 
accorded me the privilege of testifying at.
    It should be acknowledged that the subcommittee was already 
working On the present hearing well before the new cycle turned 
to Nigeria once again in the aftermath of the Boko Haram 
attacks on Baga 2 weeks ago. With your permission, I will 
present a summary of my current assessment of Boko Haram and 
the situation in Nigeria and ask that my prepared statement 
will be entered into the record of this hearing.
    Mr. Smith. Without objection, your statement and that of 
all of our distinguished witnesses will be made a part of the 
record.
    Mr. Pham. Thank you Mr. Chairman.
    At any time elections in Nigeria, Africa's most populus 
country, the continent's largest economy, home to both its 
largest Muslim community, as well as its largest Christian 
community, will be a pivotal moment, fraught with geopolitical, 
economic, and strategic implications. However, this is all the 
more the case as Nigerians prepare to go to the polls in less 
than 3 weeks in what many analysts view as perhaps the most 
competitive Presidential race since the transition from 
military to civilian rule in 1999.
    While I know that some have questioned the title of this 
hearing and its reference to a country on the brink, it is not 
an exaggeration to say that what has come together is a perfect 
storm of security threats, including, of course, the continuing 
insurgent activity of Boko Haram in the extreme northeastern 
part of Nigeria, its terrorist attacks beyond the region to 
other parts of Nigeria as well as neighboring countries, the 
humanitarian challenges, not least of which are the hundreds of 
thousands if not millions who have been displaced because of 
the conflict, and the economic pressures, top amongst which is 
the impact of declining oil prices on the national budget and 
thus resources available to the Federal Government to deal with 
the aforementioned challenges.
    Permit me therefore to begin by reviewing these challenges 
as they currently stand before returning to the upcoming 
elections and what the United States might be able to do to 
help have a positive effect on the situation in Nigeria. Since 
the subcommittee's hearing on the fight against the militants 
last June, Boko Haram has unfortunately continued to be on a 
roll and, in fact, appears to have even ramped up its momentum.
    Depending on which Nigerian official or international 
analyst one chooses to credit, this means the group effectively 
exercises at least loose dominion over a total area that is 
either larger than the State of Maryland, as you mentioned, or 
perhaps even slightly smaller than the State of West Virginia.
    Just this past weekend, an assault on the Borno State 
capital of Maiduguri by Boko Haram was repulsed, although I am 
not entirely convinced that the strategic objective of that 
attack was so much to storm the city as to underscore a 
message, given that the attack came the day after the Nigerian 
President had campaigned there amid heavy security and sought 
to reassure the citizens that the insurgency would be defeated.
    On the other hand, the group's simultaneous attack on 
Monguno, which received less attention, a town near Nigeria's 
borders with Chad and Cameroon was very unfortunately 
successful, resulting in the capture of a city with its 
population of more than 110,000 people, as well as the large 
military base nearby.
    Nigerian Military spokesmen admitted that the garrison in 
Monguno consisting of some 1,400 soldiers from the 243rd Army 
Battalion and other units were overwhelmed. The seizure of 
Monguno, which sits at the intersection of three major roads, 
removes one of the key buffers protecting Maiduguri and the 2 
million people who reside there or who have taken refuge there 
from complete encirclement by Boko Haram forces.
    Furthermore, Boko Haram has been using the territory it 
holds or clears out as a base to launch a campaign of terrorist 
attacks reaching other Nigerian states as well as neighboring 
countries, some of which like Niger are already under 
incredible pressure from militants linked both to al-Qaeda's 
north African affiliate as well as spillover from the 
continuing disintegration of Libya. Niger's President Mahamadou 
Issoufou has even been quoted as saying that ``the Islamic 
State is at our door.''
    In its ongoing offensive, Boko Haram is not only using the 
terrorist tactics it has honed over the last 5 years, but even 
ratcheting up with new twists like the recent use of young 
girls as young as 10 years old to carry bombs into crowded 
settings. Even more worrisome, as a number of analysts have 
pointed out, Boko Haram's recent messaging and activities point 
to a troubling convergence tactically and ideologically with 
the so-called Islamic State.
    While the reasons for failure to contain, much less roll 
back, Boko Haram's advance were addressed in my prior testimony 
are, indeed, legion with plenty of blame to go around, I would 
be remiss if I didn't call attention to the fact that the 
address last week at Chatham House by Sambo Dasuki, National 
Security Advisor to Nigerian President Goodluck Jonathan, if it 
indeed is representative of current consensus in Abuja and 
consequent future conduct by the Federal authorities, 
represents a significant and promising shift in strategic 
thinking.
    Not only has Boko Haram wreaked havoc in Nigeria's 
northeast quadrant and parts of Niger, Chad, and Cameroon, but 
the group's attacks have also precipitated a veritable 
humanitarian crisis spanning the region. The combined effects 
of the insurgents' seizure of livestock and food supplies, as 
well as the closure of markets, the abandonment of farms, some 
for several years in a row, have resulted this month in the 
warning from the Famine Early Warnings Systems Network of the 
U.S. Agency for International Development that without massive 
assistance, some 3 million people will not be able to meet 
their basic food needs by the middle of this year.
    In the context of discussing the humanitarian crisis caused 
by Boko Haram, it is incumbent upon me to draw attention to a 
frequently overlooked fact. While northern Nigeria has 
historically been predominantly Muslin, the north is not 
without a sizeable Christian population, just as some parts of 
the south, especially the southwest of the country, have 
significant Muslim communities. Consequently, both Muslims and 
so Christians have been victims of Boko Haram's brutal 
assaults.
    However, the Christian community has suffered a 
disproportionately high toll. According to the Roman Catholic 
Diocese of Maiduguri, in just 2 months, August and September of 
last year, 185 churches were destroyed by Boko Haram in Borno 
and Adamawa States. When added to the 300 churches destroyed in 
2013, and those destroyed in previous years, it adds up to an 
unholy tally of more than 1,000 Christian houses of worship 
destroyed by Boko Haram since the last time Nigerians went to 
the polls.
    With hydrocarbons still making up much of Nigeria's exports 
and up to 80 percent of the government's revenues, the dramatic 
fall in global oil prices cannot but have a major impact on the 
Nigerian economy. The Naira is trading at record lows against 
the U.S. dollar. As I was leaving the office to come here 
today, one U.S. dollar brought about 190 Naira. The stock 
market is down by almost one-third. Expectations for economic 
growth in 2015 have been revised downward, and the Federal 
budget has been recalibrated twice in recent months, and for 
that I give credit to the Finance Minister for at least 
recalibrating the budget, which is more than what some other 
oil producing countries have done.
    In addition to pressures exerted on the economy by the 
global commodity prices, there has been the negative impact of 
the ongoing insurgency on the economy of the northern part of 
the country in general and the northeast in particular. 
Diminished revenues clearly impact the resources available to 
Nigeria to fight the insurgency and fund the sort of holistic 
approach to development that can truly drain the fever swamps 
that feed extremism.
    All this sets the context for the upcoming general 
elections, which Secretary John Kerry rightly described on 
Sunday as one of the most important elections Nigeria has ever 
held. There are a number of challenges to the vote however. In 
deference to my good friend, Dr. Chris Fomunyoh, who just 
returned from a joint International Republican Institute-
National Democratic Institute pre-election assessment and will 
address the main technical and structural issues with the 
election organization, I will limit myself to just a few points 
of concern.
    First, the specter of Boko Haram has increasingly impacted 
the election and will continue to do so. With numerous local 
government areas either under the insurgents' control or 
otherwise rendered unsafe, even the Independent National 
Electoral Commission has acknowledged that it will be 
impossible to organize voting across the entire territory of 
the Federal Republic of Nigeria. Whether satisfactory 
arrangements can be made for displaced persons remains to be 
seen.
    In addition, millions of voters across states most impacted 
by Boko Haram may still be deterred from voting by a fear of 
suicide bombing or other attacks mounted by the terrorists. 
Thus the political question that will be answered only after 
the elections is how the winner claims the mandate of the 
people when so many could potentially be unable to express 
themselves.
    Two, even aside from Boko Haram in the northeast, divisive 
and inflammatory messages which some political figures and 
their supporters have been delivering through traditional and 
social media in several parts of Nigeria is worrisome, raising 
as it does the risk of the sort of localized violence that has 
marred elections in the past. Of course the impunity of those 
responsible for the violence surrounding the previous polls, 
including 2011, does little to discourage these people.
    Third, election day itself presents extraordinary security 
challenges commensurate with the temptations it undoubtedly 
presents to the terrorists who ideologically reject democratic 
politics and who strategically have every reason to tarnish the 
poll.
    Fourth, in the leadup to next month's vote, various fault 
lines have emerged in greater relief, dividing Nigerian society 
along various ethnic, regional, and religious lines. 
Ironically, these are the sorts of fissures that first-past-
the-post democratic politics exacerbates, rather than 
mitigates. In addition, the crisis in the north, adds a wild 
card to the election insofar as Nigeria's Constitution requires 
the Presidential candidate winning not only to win 50 percent 
plus 1 vote of the total votes cast, but also that he win 25 
percent of the votes in two-thirds of the states of the 
federation.
    Fifth, the intensely competitive Presidential race and 
exceptional circumstances are secured under which it is being 
run has given rise to concern that the winner and/or his 
supporters may refuse to accept the outcome, even if the 
election itself is credible.
    It goes without saying, Mr. Chairman, that the bilateral 
relationship between the United States and the Federal Republic 
of Nigeria has gone through something of a rough patch recently 
and at a time that could not be less opportune for any chasm to 
open up between the two countries. While the United States 
indeed has a role it can and should play in this pivotal moment 
in Nigeria's history, we also need to be realistic about what 
that role is, cognizant of some very real limitations.
    That said, Secretary Kerry's visit to Nigeria over the 
weekend and his meetings with the two leading contenders and 
other officials helped underscore the importance that we 
recognize in this election and our commitment to a strong 
working relationship with Nigeria going forward. While much of 
what we may be able to do and would like to do in cooperation 
with Nigeria to combat Boko Haram may have to wait until the 
dust settles after the election, there are things which can be 
done now, and those we need to look at.
    Mr. Chairman, it is hard to exaggerate the importance of 
Nigeria's upcoming general elections, not only for the 
immediate political future of Africa's giant, but also in light 
of the rapid expansion of the threats posed by Boko Haram and 
the inability for various reasons of the Nigerian forces so far 
to contain it, much less defeat the militants.
    The international community, Mr. Chairman, can only hope 
that when the result that emerges from that election is, 
indeed, the will of the people, and we should stand by the 
Nigerian people as they queue up to cast the votes for their 
future, indeed, all of ours.
    Thank you, Chairman.
    Mr. Smith. Thank you so much for your insights.
    We are a little pressed because there may be some votes 
coming soon, but thank you so much.
    [The prepared statement of Mr. Pham follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Badejo.

STATEMENT OF MR. JADEGOKE ADEBONAJO BADEJO, PRINCIPAL PARTNER, 
                      BONAJO BADEJO & CO.

    Mr. Badejo. Chairman Smith, and ranking member of the 
subcommittee, I thank you for this privilege to testify before 
you on this important issue which threatens the continued 
existence of my country, Nigeria.
    I acknowledge with gratitude the tireless efforts of the 
chairman and members on Africa and Nigeria in particular. I 
know that your efforts will further cement the bond of 
friendship between the United States of America and Africa and 
also assist my country, Nigeria, tremendously in overcoming the 
present challenges.
    I describe myself as an official bystander. I have never 
held any political office in Nigeria. I am not a card-carrying 
member of any political party, so I have come here today to 
tell you what I have seen on the ground in Nigeria where I just 
arrived from yesterday, as one who is clearly interested in the 
affairs of my country.
    I also must state that I belong to the Lift Up Now 
organization, and I am associated with the Faith Based 
Community Organization in New Jersey, and I know that they 
share the same views with me.
    Travails of democracy in Nigeria. We must remember that 
Nigeria consists of 250 ethnic groups. They have different 
cultures, and they also have differences in religion and world 
view. What the British did was to by fiat, forge these ethnic 
groups into one single country. The British organized elections 
before Nigeria became independent. These elections were more or 
less credible because of the presence of British Government who 
tried as much as possible to make politicians play by the 
rules.
    But since independence, immediately after independence, 
what we had in Nigeria unfortunately were parties whose support 
base were mainly rooted in their ethnic areas. So we had three 
parties, major parties, and other smaller parties who are 
constantly at war with themselves and trying all sorts of 
methods to control the resources of the Federal Government at 
the center, and that was the beginning of insecurity in 
Nigeria.
    And this insecurity which led to riots in the southwestern 
part of Nigeria, which is now called the southwest region, led 
eventually to the collapse of the First Republic. There was 
military interregnum, and the Second Republic also faced 
similar challenges in the sense that these parties remained in 
their anklets, perpetually struggling for power in the center. 
And this complexity explained or is at the root of what we have 
as the Nigerian problem today, and it must be understood before 
we can provide solutions to these challenges.
    In the Second Republic we must remember also that, that 
republic collapsed 3 months after the election, the second 
election in that republic because of rigging, thuggery, 
inability to conduct a credible election, and the other 
security lapses that came with that election, so the military 
took over again. And then we add another spell of military 
interregnum.
    And then we tried a Third Republic, and that Third Republic 
also collapsed before it was actually born. Why? Because the 
difficulty in accepting the results of the election of June 12, 
1993, where the ruling oligarchy refused the result of that 
election, and that was the end of the short-lived Third 
Republic.
    Now after the military interregnum again, we went into the 
Fourth Republic, and we can observe that in the Fourth Republic 
Nigeria has survived three elections, one in 2003, 2007, and 
2011, and this is the fourth election in the process. And this 
is the longest time that we have had an unbroken democratic 
record in Nigeria.
    And what are the factors that are responsible for seeing us 
through up until today? The factors are one, the ruling 
political elites have realized that they needed to come out 
with parties that have a little bit of national spirit, and 
they have realized also that the Nigerian Nation cannot afford 
to have another military intervention. And so at the time of 
every election since 1999, we have had rising tensions, just as 
we are having now, and these tensions have dissolved 
immediately after the election with the ruling political elite 
taking some steps to douse the tension.
    Now, what happened in 1999, 2003, and 2007 is that we had 
situations where the geopolitical zone of the country that lost 
the Federal election at the center will be dissatisfied, and 
there will be pockets of post-election violence which Nigerian 
Governments have met by either inviting the opposition to join 
in the cabinet or inviting selected individuals within the 
opposition to come into the cabinet to participate in 
government. This process doused tension considerably. But the 
build-up to the present election has witnessed something we 
have never seen before in Nigeria and it is really, really 
alarming.
    Now, I will need to trace the history of what led us to 
this present position so that we can understand. The government 
that was put in place in 1999 was aided by President Olesegun 
Obasanjo who is from the southwest. He had a Vice President 
from the northeastern part. He ran the government for 8 years, 
and he handed over to President Yar'Adua, who is from the 
northwest, and the Vice President at that time is the current 
President who is from the south-south geopolitical zone. And 
you will discover that it means that without changing 
government, the office of the Nigerian political elite 
succeeded in rotating power from two regions to another two 
regions, so you have the semblance of stability in the polity.
    Unfortunately President Yar'Adua died, and we had a 
President from the south, and then that was the beginning of 
the escalation of the serious security challenges that we 
faced. Now, the contest for power is a contest for power 
between the northwest and the south-south, so we have the two 
contestants for power in Nigeria now. One from the northwest 
and another from the south-south. And there are a lot of people 
in Nigeria today who are supporting these candidates based on 
the region they come from, so you will find a lot of their 
supporters, supporting them because they feel that they come 
from the region where they come from.
    Mr. Smith. Mr. Badejo, we have 15 minutes to be physically 
on the floor for a series of votes.
    If we could go to Mr. Ogebe and then to our next 
distinguished witness, and then if there is another minute or 
so, you could sum up.
    Mr. Badejo. I just want to sum up, I will sum up now. If I 
am permitted to sum up.
    Mr. Smith. If you gentlemen can equally divide it for about 
7 minutes each. And then we will come back to you for a 1-
minute sum up.
    [The prepared statement of Mr. Badejo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


 STATEMENT OF MR. EMMANUEL OGEBE, MANAGER, PEACEFUL POLLS 2015 
                            PROJECT

    Mr. Ogebe. Thank you very much, Mr. Chairman, for inviting 
me once more to speak.
    And I just want to commend this panel. This is the first 
time that I have addressed the panel where 75 percent of the 
membership had recently been to Nigeria, so I commend you for 
your courage in doing so at this trying time.
    I think it is also fitting that today is the 70th 
anniversary of the liberation of Auschwitz, that we are looking 
at an issue that deals with the Auschwitz of our time. I just 
returned from Nigeria recently where the Baga atrocity 
occurred. And to put this statistically, in 2012 Boko Haram 
killed approximately 2,000 people. In the first week of 2015, 
they have already exceeded the number of people they killed in 
2012. Last year it took them 6 months to achieve what they have 
done this year in a matter of 7 days.
    But I also want to draw attention to the fact that Boko 
Haram has taken a back seat to ISIS. Even though the terrorism 
rankings indicate that Boko Haram has led ISIS in the last 3 
years in atrocities, and it is a puzzle to me to this date that 
Boko Haram does not get the attention that ISIS has.
    But then even when we talk about Paris, Paris occurred at 
the very same time as Baga, and Paris got way more attention 
than the people of Baga ever did, even though the destruction 
of Baga was an extinction-level event. I want to say that black 
lives do matter when it comes to global terrorism as well.
    Let me also seize this opportunity to say there is a French 
connection to what is happening in Nigeria. France has a huge, 
I call it the France loophole, we have the FTO designation, but 
France is one of the countries that pays Boko Haram huge ransom 
money for kidnapped citizens, which is fueling the killings of 
black people in Nigeria.
    France needs to understand that global terrorism is not 
isolated to one part of the world. When you pay money to 
terrorists, they use it to kill other people and I hope that 
this is a wake-up call to France. You can't give Boko Haram 
money to kill Nigerians.
    Boko Haram has killed people of over 15 countries. They 
have killed Italians. They have killed Greeks. They have killed 
Norwegians, many people, so indirectly France's money is going 
to fueling that organization. Boko Haram does not have the oil 
wells that ISIS has, so it relies on this ransom money to be 
able to fund itself.
    Now, today I want to, of course, speak about the elections 
because that unfortunately is another reason that religious 
minorities are killed in northern Nigeria. In a 3-year window 
in 2011, in a 48-hour time period, several hundred churches 
were destroyed. Hundreds of Christians were killed. People were 
pulled out of taxies and killed because they were Christian, 
not because they asked them who they voted for. Because they 
were Christian, they assumed that they voted for a Christian. 
My cousin was shot five times in 2011.
    In 2012 we had the Boko Haram atrocities. In 1 day that 
killed over 200 people, and so we see that elections compete 
with Boko Haram for the killing of indigenous Christian 
minorities in northern Nigeria. And that is why the elections 
on February 14 this year will likely be a Valentine's Day 
massacre for the poor Christians of northern Nigeria.
    And so I have, I just in the last 2 weeks started a project 
called Peaceful Polls 2015 because based on the atrocities I 
saw in 2011, we said we need to do something to avert these 
avoidable atrocities and tragedies. And one of the things we 
did--I know Congressman Emmer was asking what practical things 
had been done--my project, the Peaceful Polls Project, has 
filed FOIA requests with the Government of Nigeria saying where 
are the people that you prosecuted for all the atrocities last 
time? If they are not in jail, guess what; they are coming back 
again. And so in the next few weeks we are following up with 
the various attorneys generals' offices to ensure that impunity 
does not continue and that these people are put behind bars.
    I will quickly go to what I consider the recommendations 
that I would like to make, and let me say here, Congressman, 
that I think it is illogical for the U.S. Military trainers to 
say, well, the Nigerians don't have equipment, so we can't 
train them. But on the other hand, you are refusing to sell 
them equipment.
    And so we have a suggestion where the Prime Minister of 
Iraq is saying, you know, we want to buy weapons from the U.S., 
and we need loan deferments to buy the weapons. Nigeria is 
saying we are going to pay cash for these weapons, and you are 
saying no. That is not how the marketplace works. Give Nigeria 
the weapons, give them the training. They have the human 
resource to make this happen.
    But, Mr. Congressman, let me say, sir, that with regard to 
the Chibok girls, the world has blinked. The girls had 15 
minutes of fame, and we walked away. It is now 9 months. I 
spoke to a man who escaped from one of Boko Haram's 
concentration camps last week, and he told me that as recently 
as September the girls had not all been married off. That means 
that we can still rescue them. That means that they will not 
all possibly have babies at this point, which will make it 
easier for us to rescue them; but we have 40 days to rescue 
them and we need to work with that time window.
    Finally, Mr. Congressman, let me say that you have done a 
great job in calling for a victim fund in Nigeria, and a month 
after you made that call, the President of Nigeria responded by 
launching a fund. I think that means that you should come to 
Nigeria more. But with that said, I do want so say there is 
something we can do right here, right now in America, which is 
to reintroduce the bill that Congresswoman Frederica Wilson 
introduced last month.
    The bill would allow forfeited Nigerian assets here to be 
put into a victim assistance fund. As she mentioned, I was 
responsible for bringing ten of the Chibok girls and putting 
them back in school in America. We can do that and we can do a 
lot more without using U.S. taxpayer funds. We can use funds 
from Nigeria that are here already.
    So, Mr. Congressman--Mr. Chairman, let me say we may not be 
able to bring back our girls, but we can help those who 
escaped, and we can do that by bringing back that bill. So 
bring back our bill, H.R. 5778, which Honorable Congresswoman 
Frederica Wilson introduced last session.
    And I thank you very much.
    Mr. Smith. Thank you, Mr. Ogebe.
    [The prepared statement of Mr. Ogebe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. I would like to now introduce Dr. Fomunyoh.

   STATEMENT OF CHRIS FOMUNYOH, PH.D., SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Fomunyoh. Mr. Chairman, Ranking Member Karen Bass, and 
distinguished members of the subcommittee, on behalf of the 
National Democratic Institute, the NDI, I appreciate the 
opportunity to discuss current political developments in 
Nigeria in light of next month's general elections. This is a 
summary of my original testimony, as my full testimony has been 
submitted for the record.
    Nigeria faces significant challenges that could undermine 
the success of the 2015 polls. Two weeks ago, NDI and the 
International Republican Institute, IRI, conducted a pre-
election assessment mission to Nigeria. I was part of that 
delegation and just returned from Nigeria. I ask that the 
delegation's statement be included in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Fomunyoh. The 2015 Elections: In the Eye of the Storm. 
The 2015 elections will take place in a difficult political and 
security environment for Nigeria. The country is deeply 
polarized around regional, religious, and partisan lines. These 
cleavages are exacerbated by citizen dissatisfaction over the 
economy, the Boko Haram insurgency, poor delivery of public 
services, and allegations of large-scale fraud.
    Moreover, Nigeria has a history of election-related 
violence. Boko Haram extremists pose a major threat to the 
conduct of peaceful polls. Insecurity in the northeastern 
States of Borno, Yobe, and Adamawa, which have approximately 
4.5 million registered voters, could cause the disfranchisement 
of a large number of voters. In addition, hundreds of thousands 
of internally displaced persons, IDPs, are not likely to return 
to their home constituencies before election day and may 
therefore not be able to vote.
    Nigeria Pulling Back From the Brink. Despite these 
challenges and many more, Nigeria still has the ability to pull 
itself back from the brink, in part because of a number of 
measures undertaken by the Independent National Electoral 
Commission (INEC).
    These include: Biometric registration which entailed a 
thorough audit of the voter registry and using voters' 
biometric data to eliminate double entries, underage voters, 
and the deceased. Close to 5 million names were expunged. 
Machine-readable permanent voter cards, PVCs, and voter card 
readers which will allow INEC to track number of accredited 
voters per polling site and therefore hinder the inflation of 
results noted during previous elections.
    An Interagency Consultative Committee on Election Security 
charged with improving election security by facilitating 
seamless coordination among governmental agencies. INEC has 
also accredited 78 citizen observer coalitions and 19 
international delegations to monitor the polls.
    Nigeria's vibrant civil society also has undertaken a 
number of initiatives to enhance the legitimacy of the polls. 
These include: Voter education and get-out-the-vote campaigns 
targeting youth, including a campaign launched by the well-
known Nigeria artist 2face Idibia in collaboration with the 
Youngstars Foundation with technical assistance from NDI, and 
various interfaith initiatives lead by Muslim and Christian 
leaders aimed at promoting violence-free polls.
    In addition, the Transition Monitoring Group (TMG), a 
coalition of more than 400 civil society organizations is 
gathering and analyzing nationwide data on acts of violence and 
to identify early warning signs of violence. TMG will also use 
parallel vote tabulation methodology that will draw on 
statistical principles to provide realtime qualitative and 
quantitative assessments of voting dates and verification of 
the official election results. TMG has recruited and trained 
over 3,000 observers for the PVT Quick Count.
    Finally, on January 14, Presidential candidates, including 
the two frontrunners, signed a public pledge for a peaceful 
election, the Abuja Accord, committing themselves to run issue-
based campaigns, to refrain from violence and inflammatory 
speech, and to speak out against any such violence.
    The Way Forward. Under normal circumstances, conducting 
national elections in Nigeria is no easy feat. And these are 
not normal times. The stakes are extremely high. At this 
crucial moment, friends of Nigeria should send a strong message 
to its government and the Nigerian people underscoring their 
support for violence-free and credible elections.
    They should also appeal to INEC to guarantee proper 
administration of the polls and to the Government of Nigeria to 
provide security for voters. The Nigerian people are to be 
commended for their efforts to increase citizen participation 
and enhance prospects for peaceful elections, and must be 
encouraged to do more in the remaining weeks and the post-
election period.
    The international community should continue to provide 
objective and nonpartisan assessments of the electoral process 
with a forceful message that violence will have consequences 
for the legitimacy of the election outcome. All concerned 
parties should, therefore, put in place contingency plans to 
safeguard the peace and further consolidate the democratic 
gains that would emerge from a meaningful electoral process.
    To conclude, as a highly respected Nigerian religious 
leader told the NDI-IRI delegation in Abuja 2 weeks ago, ``We 
Nigerians have perfected the art of dancing on the brink, but 
it is an uncomfortable place to be.'' In my humble opinion, 
Nigeria does not have to stay on the brink in perpetuity.
    Should the 2015 polls be peaceful and credible, Nigeria 
will have a lot going for it. The outcome of this election 
would have significant implications for the consolidation of 
democracy in Nigeria and elsewhere on the African continent.
    Thank you, Mr. Chairman, and members of the subcommittee.
    Mr. Smith. Dr. Fomunyoh, thank you so very much for your 
testimony.
    [The prepared statement of Mr. Fomunyoh follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you to all of you for your expert, 
incisive commentary. And if we could get back for a 1-minute, 
we are almost out of time, if we could.
    Mr. Badejo. Thank you, Mr. Chairman. Thank you. Now, the 
challenges confronting Nigeria can be solved both in the short 
term and the long run. In the short term, I believe the United 
States should engage Nigerian leaders in ensuring that they 
maintain peace and sensitize them toward moving on in an 
atmosphere of peace and security in the country.
    Knowing fully well that the fundamental problems are caused 
by the ethnic configuration of Nigeria, insecurity caused by 
corruption and chronic inefficiency, so the United States 
Government should note this and then assist Nigeria in coming 
out of this problem.
    On the long term I believe that whatever government comes 
into place must be constructively engaged. There must be, if 
the United States can, legislation that will assist Nigeria in 
establishing enduring democracy.
    One thing that the United States can do is to assist 
Nigeria in having the center for democratic studies established 
that will be funded, that will be well-positioned in terms of 
staff to address the problems of Nigeria. There must be 
political education of Nigerians. I believe that Nigeria will 
survive, and all hands must be on deck to ensure that that 
Nation gets its political kingdom.
    I thank you, Mr. Chairman, for your support in this.
    Mr. Smith. Thank you, all four of you, for your written 
testimonies which will help this committee, will help hopefully 
the administration. As we go forward, your opinions are deeply 
valued and cherished, and so I thank you.
    We don't have time for questions because of this series of 
votes, and I apologize.
    The hearing is adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Material submitted for the record by Chris Fomunyoh, Ph.D., senior 
 associate and regional director for Central and West Africa, National 
                          Democratic Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
